July 21, 2011 
 
To:        The Federal Co‐Chairman 
           ARC Executive Director 
 
Subject:   OIG Reports 11‐5 and 11‐6 
            Status of Basic Agency Grants 
 
 
Enclosed are our summary reports dealing with the status of basic agency administered grants. The 
reports pertain to follow‐up actions to determine the status of these grants and potential for grant 
closing and de‐obligations where appropriate. 
 
                             
                             
                             
Hubert Sparks 
Inspector General 
                                     OPEN BASIC AGENCY GRANTS

                                 WITH NO REPORTED FUND BALANCES

                                            OIG Report 11-6

                                              July 15, 2011



BACKGROUND

We are coordinating with and supporting an ARC initiative to assess open grants, including grants
subject to closing. This report highlights grants for which ARC funds have all been expended per ARC
databases or for which expenditure information is not available.

RESULTS

Our review of information on ARC Net as of June 16, 2011, identified 421 basic agency grants where
there were no remaining balances of ARC funds or for which information was not available to determine
grant status. This included 219 basic agency grants for which balances were noted as zero and 202
grants administered by the Federal Highway Administration (FHWA) for which necessary information to
determine grant status was not available. (see Attachment 1)

Also, in many cases the elapsed time since the last noted transaction date was very substantial. (see
Attachment 2)

Although there is generally no monetary impact resulting from grants remaining open long after projects
are completed efficient grant management policies should include closing of grants within a reasonable
period after determinations that the project was successfully completed. With respect to FHWA grants
for local access roads, and recognizing that ARC no longer is a funding source, the lack of information on
grant status also restricts ARC follow-up action with respect to the potential for FHWA de-obligations
that could be used for other projects.

Prior to 1999 ARC approved these grants, which are primarily for access roads, and provided funds to
FHWA for grant administration. Subsequent to 1999, FHWA obtained the funds directly from the
Federal Highway Trust Fund although the ARC Federal Co-Chair retained grant approval responsibility.
ARC Net reflects the ARC grant number, title and date approved but contains no information about
funding or the balance of funds. Since 2005, ARC requested FHWA to annually report Local Access Road
(LAR) project status and Federal fund obligations balances for active states but the reports do not
provide sufficient information about older LAR projects to determine if the projects are completed and
grants can be closed. There is also a different grant numbering system between ARC and FHWA that
further complicates reconciliation efforts. ARC includes the ARC grant number when notifying FHWA of
grant approval but the FHWA data base does not have a data field to record the ARC grant number. In
some cases one ARC project generates more than one FHWA project.

In addition to ongoing ARC follow-up actions, ARC should establish follow-up procedures that will trigger
more timely actions, including contact with Basic Agencies, to determine grant status and applicable
actions. With respect to the Federal Highway Administration grants, ARC should work with FHWA staff
to establish a more effective system for indentifying the status of grants, including balances and
potential for grant closing and possible de-obligations, including any de-obligations applicable to grants
funded by ARC prior to 1999. Additionally, if use of similar grant numbers is not feasible, ARC should
encourage FHWA to include ARC grant numbers in FHWA databases and in reports to ARC.



Hubert Sparks
Inspector General

Attachment 1 – Open Basic Agency Grants with no Current Balances

Attachment 2 – Tables of last transaction dates for open grants with zero ARC balances
                                                                                    Attachment 1




               Open Basic Agency Grants with no Reporting Balances per ARC Net 6/17/11



Basic Agency     Grants Approved       Grant Approval Period Grants Approved       Total
                 Before 2009                                 2009 - 2011


EDA                 11                    1996-2006              2                  13

HUD                 62                    1997-2008              23                 85

RDS                 69                    1994-2008              10                 79

TVA                 8                     2006-2008              16                 24

Corps of Engineer    4                    1996-2006              1                   5

EPA                  1                       2008                6                   7

SCS                  5                    1992-1995              -                   5

DOT                  -                                            1                  1
Sub Total           160                                          59                 219

Federal Highway     169                    1988-2008            33                  202
Administration
                                                                                          Attachment 2




                Tables of Last Transaction Dates for Open Grants with Zero ARC Balances
                                          Per ARC Net 6/17/11



Basic Agency                   Number of Grants                        Range of Days Since
                                                                       Last Transaction Dates
RDS                                    79                               17 – 3367

HUD                                    85                              17 – 2871

EPA                                    13                               2 – 1177

TVA                                    24                               2 – 1675

EPA                                     7                              102 – 816

SCS                                     5                             4218 – 6807

DOT                                     1                                 295



Federal Highway
Administration

Prior to 2000                          169                             952 – 8250
2009 – 2011                            33                              10 - 816
